<html>
<title> - PROMOTING GLOBAL INTERNET FREEDOM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   PROMOTING GLOBAL INTERNET FREEDOM

=======================================================================



                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 8, 2011

                               __________

                           Serial No. 112-114

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
71-621                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TOM MARINO, Pennsylvania             KAREN BASS, California
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
ROBERT TURNER, New York

October 11, 2011 


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Daniel Calingaert, Ph.D., vice president, Freedom House..........     6
Ms. Clothilde Le Coz, Washington director, Reporters Without 
  Borders........................................................    17
Ms. Elisa Massimino, president and chief executive officer, Human 
  Rights First...................................................    27
Ms. Rebecca MacKinnon, Bernard L. Schwartz fellow, The New 
  America Foundation.............................................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Daniel Calingaert, Ph.D.: Prepared statement.....................     9
Ms. Clothilde Le Coz: Prepared statement.........................    19
Ms. Elisa Massimino: Prepared statement..........................    31
Ms. Rebecca MacKinnon: Prepared statement........................    43

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................    76
Written responses received from Freedom House to questions 
  submitted for the record by the Honorable Russ Carnahan........    77
Daniel Calingaert, Ph.D.: Exerpt from report submitted for the 
  record.........................................................    81


                   PROMOTING GLOBAL INTERNET FREEDOM

                              ----------                              


                       THURSDAY, DECEMBER 8, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:45 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. I want to, 
first of all, express my apologies to our witnesses and all 
interested parties for the delay. We did have a series of votes 
that precluded gaveling this to order at the proper time of 
2:00, so I ask for your forbearance.
    Good afternoon and welcome to this hearing on global online 
freedom. About 2 billion people in the world regularly 
communicate or get information on the Internet. Well over half 
a billion people do so in repressive countries. As Internet use 
has become vital and even the standard means to disseminate 
beliefs, ideas, and opinions, so we see a growing number of 
countries that censor or conduct surveillance on the Internet 
in conflict with internationally recognized human rights, laws, 
and standards.
    In 2006, I held the first major hearing ever on Internet 
freedom, right here in this room in response to Yahoo! turning 
over the personally identifying information of its email 
account holder Shi Tao to the Chinese Government, who tracked 
him down and sentenced him to 10 years for sending abroad 
emails that revealed the details of Chinese Government press 
controls. At that hearing Yahoo!, Google, Microsoft, and Cisco 
testified on what we might ruefully call their worst practices 
of cooperation with the Internet police of totalitarian 
governments like China's.
    That same week, I introduced the first Global Online 
Freedom Act as a means to help Internet users in repressive 
states. In 2008, the Global Online Freedom Act was passed by 
three House committees.
    In the last dozen years, the Internet, in many countries, 
has been transformed from a freedom plaza to big brother's best 
friend. The technologies to track, monitor, block, filter, 
trace, remove, attack, hack, and remotely take over Internet 
activity, content, and users has exploded. Many of these 
technologies are made in the United States. Many of them have 
important and legitimate law enforcement applications, but 
sadly, many of them are also being exported every day to some 
of the most unsavory governments in the world whose use of them 
is far from legitimate. Every day we learn that more activists 
are being arrested for the use of newly developed 
technologies--much of it American technology--in China, 
Belarus, Egypt, Syria, and many other countries around the 
world. The stakes are life and death for online democracy 
activists, and they deserve our support and protection.
    For example, Belarus is blocking social networking sites 
like Twitter and Facebook and aggressively shutting down 
opposition Internet sites. Kazakhstan, which already blocks a 
number of popular blogs and media sites, is also in the process 
of creating a ``national Internet'' where all domestic domain 
names will have to operate on physical servers within its 
borders. Syria is using sophisticated tools to limit the 
ability of the opposition to organize, and to track down 
peaceful protestors.
    China has created the Great Firewall and wants to create 
its own sanitized version of the Internet that will essentially 
isolate China from much of what is happening in the rest of the 
world, and when protests break out, it simply shuts down the 
Internet, as it did in Tibet and Xinjiang in recent years.
    In Vietnam, Facebook has been blocked for 2 years, and 
under a new executive decree, a number of bloggers and 
journalists who write for independent online publications have 
been arrested. Egypt continues to detain blogger Alaa Abd El-
Fattah for his online criticism of the Egyptian army, and today 
we have just learned that in addition to its already extensive 
online censorship in Iran, the U.S. virtual embassy in Iran has 
been blocked after only 1 day of operation.
    Today, I introduced a bill, along with Congressman Frank 
Wolf and some other Members of the House, a bill that responds 
to the growing use of the Internet as a tool of repression and 
to changes in technologies of repression. The new Global Online 
Freedom Act of 2011, H.R. 3605, fundamentally updates 
legislation I first introduced in 2006 and which in 2008, as I 
mentioned before, advanced through three House committees.
    The new GOFA requires the State Department to beef up its 
reporting on Internet freedom in the annual Country Reports on 
Human Rights Practices and to identify, by name, Internet-
restricting countries. This country designation will be useful 
not only in the diplomatic context, in helping to advance 
Internet freedom through naming and shaming countries, but will 
also provide U.S. technology companies with the information 
they need in deciding how to engage in repressive foreign 
countries.
    Second, the bill requires Internet companies listed on U.S. 
stock exchanges to disclose to the Securities and Exchange 
Commission how they conduct their human rights due diligence, 
including with regard to the collection and sharing of 
personally identifiable information with repressive countries 
and the steps they take to notify users when they remove 
content or block access to content. This provision of the bill 
will help democratic activists and human rights defenders hold 
Internet companies accountable by creating a new, heretofore 
unrealized, transparency standard for Internet companies. This 
provision will also require foreign Internet service companies 
that are listed here in the U.S. to report this information as 
well. This will include big Chinese companies such as Baidu, 
Sohu, and Sina.
    Finally, in response to many reports that we have all seen 
in the papers recently of U.S. technology being used to track 
down or conduct surveillance of activists through the Internet 
or mobile devices, this bill will prohibit the export of 
hardware or software that can be used for potentially illicit 
activities such as surveillance, tracking, and blocking to the 
governments of Internet-restricting countries. Current export 
control laws do not take into account the human rights impact 
of these exports, and therefore do not create any incentive 
whatsoever for U.S. companies to evaluate their role in 
assisting repressive regimes.
    This section will not only help stop the sale of these 
items to repressive governments, but will create an important 
foreign policy stance to the United States that will help 
ensure that dissidents abroad know that we are indeed on their 
side and that U.S. businesses are not profiting from this 
repression.
    This export control law is long overdue and thoroughly 
consistent with the approach Congress has taken, for example, 
in restricting exports of certain crime control equipment to 
China. It makes no sense for us to allow U.S. companies to sell 
technologies of repression to dictators and then turn around 
and have to spend millions of dollars to develop and deploy 
circumvention tools and other technologies to help protect 
dissidents from the very technologies that U.S. companies 
exported to their persecutors.
    Today's hearing is an important moment to take stock of 
where we are and how we can move forward to promote and defend 
Internet freedom around the world. What we do here in the 
United States is critically important to achieving our goals. 
We must send a strong message to companies; that they have a 
unique role to play in preserving online freedom and send an 
even stronger message to repressive governments that the 
Internet must not become what it is today, so often a tool of 
repression.
    I would like to yield to my good friend and colleague, Mr. 
Payne, for any opening comments.
    Mr. Payne. Thank you very much, Chairman Smith, for calling 
this very important and timely hearing that looks at the 
promotion of Internet freedom around the world. I would also 
like to thank our distinguished witnesses for agreeing to 
testify here this afternoon.
    For over 2 billion people worldwide, the Internet serves as 
a daily source of news, a way to communicate with family and 
friends, and a place to conduct business. It has become a 
staple of our day-to-day lives around the world. For some, the 
Internet serves as a venue to express one's religious or 
political views, a right that we as Americans hold in the 
highest regard. It is in this capacity that the Internet has 
served as a tool for both freedom and repression.
    Over the past year, we have witnessed what has been dubbed 
the Arab Spring. In countries throughout the Arab world, via 
the Internet and social networking, citizens have communicated, 
organized, and raised awareness of their plight under 
repressive regimes, oppressive regimes. Sites such as Facebook 
and Twitter have played a major role in these uprisings, 
offering the opportunity to spread ideas and organize events 
with a large number of participants. In a March poll of 
Egyptian and Tunisian Facebook users, 85 percent of the 
respondents in both countries said that the primary use of 
Facebook was to raise awareness amongst countrymen, inform the 
global community or organize movements. Given that in the first 
quarter of 2011 the number of Facebook users in the Arab world 
increased by 30 percent, it is obvious the dramatic impact 
Facebook is having on these movements.
    It should be noted that Facebook and other social media 
network sites still have a low penetration rate in these 
regions. In Egypt, for example, Facebook is used by a mere 5.5 
percent of the population. However, this still amounts to 6 
million users. It may be the case that Facebook users organized 
online and then grew protests through other means. I am 
interested in hearing from our panelists their thoughts on this 
issue.
    Whether you view the Internet as a social networking site, 
as an instigating factor or simply a tool, one thing is clear, 
the long-suspected power of the Internet to bring about 
political change has been confirmed, and that is very good. The 
world watched as Egyptians took to the streets to demand a new 
government. In what has been called the Facebook revolution, on 
February 11th, citizens from all around the globe celebrated as 
President Hosni Mubarak stepped down after 29 years of power. 
In Yemen, one activist who worked to organize protests through 
social media explained that the Internet served to break the 
fear and the silence and that online he felt freer to express 
his opinion. Just a few weeks ago Yemen's dictator of 33 years, 
Ali Abullah Saleh resigned.
    In other countries, the outcomes were bleaker or the 
protest continues. The prevalence of uprisings have caused 
governments to enact stricter policies against political 
dissent and further restrict access to information in online 
networking tools. Former President Clinton once said trying to 
control the Internet would be like trying to nail Jell-O to the 
wall. Unfortunately, there are repressive regimes around the 
world that are attempting to do just that, and some with 
relative success.
    I recently visited Bahrain where reports surfaced that the 
government deliberately blocked bloggers' sites and is 
restricting its citizens from accessing Internet, access to 
sites like Facebook, Yahoo!, YouTube, and Google Earth, yet 
determined to share their stories, protestors and bloggers 
still accessed the Internet.
    In Syria, where there is limited freedom of the press, the 
Syrian Government monitors Internet use very, very closely and 
has detained civilians for expressing their opinions or 
reporting information online. Yet activists are using an iPhone 
application to disseminate news and information online about 
their protests against Assad.
    While the Internet and mobile technology have allowed the 
voices of dissent to be heard even when governments attempt to 
block them, there is no doubt that for authoritarian regimes, 
the Internet has become the new platform for oppression.
    In China, the government is aggressively censoring online 
content to its 450 million users. According to the State 
Department's 2010 Human Rights Report, an estimated 70 Chinese 
civilians are currently in prison for the political statements 
they wrote online. This is totally wrong. Through these 
activities, China has managed to instill fear in users and 
providers, leading to self-censorship, yet many brave bloggers 
are continuing to share their stories online.
    In Zimbabwe, Mugabe's aligned police forces arrested and 
charged 46 people with treason for watching a video of Egypt 
and Tunisia's protests this past February. I am confident that 
everyone in this room condemns the action of China, ZANU-PF and 
others in their attempt to restrict the spread of information 
within their borders. We all support the notion of freedom of 
speech and freedom of information. We strongly believe that it 
is wrong to prosecute and incarcerate individuals for 
expressing their political views. China and ZANU-PF undoubtedly 
defy many of our Nation's principles and deny basic human 
rights to its people in a number of areas.
    However, as the United States seeks to promote these 
democratic values throughout the world, we must be sure that 
our initiatives do not hurt those who they are intended to 
protect. So in dealing with these issues, it is important that 
we maintain a level head and respond rationally. Our 
conversation should be about asking the question: How can we 
best serve the citizens of these countries? Once our course is 
decided, and initiatives implented, we must continue to monitor 
and evaluate the impact of our policies to ensure that they 
have the intended impact.
    In February, just days after President Mubarak resigned, 
Secretary Clinton confirmed the U.S. commitment to a free and 
open Internet. By the end of this year, through the Net Freedom 
Task Force, the U.S. will have contributed $70 million in 
projects to promote Internet freedom globally since 2008. This 
does not include initiatives of the Broadcasting Board of 
Governors, who have contributed $2 million a year over the past 
decade, toward granting access to its Web site via proxy 
servers.
    I hope to learn how the U.S. can improve on its endeavor to 
create an open and free Internet, and I am also interested in 
hearing how information is being restricted in African 
countries like Ethiopia and Zimbabwe. There have been reports 
that China was providing hardware and technical assistance to 
these governments in Zimbabwe and Ethiopia with the goal of 
jamming political opposition radios and monitoring emails. I 
look forward to hearing from our witnesses, and I thank you 
again for your willingness to testify.
    Mr. Smith. Thank you, Mr. Payne. I would ask unanimous 
consent that all witnesses' testimonies be accepted, and 
complete written testimonies be included in the record, and any 
extraneous material they would like to affix to their 
testimonies. Without objection, so ordered. I would also, 
without objection, would ask that the full biographies of each 
of our distinguished witnesses be included in the record, the 
very rich and varied backgrounds, great academic 
accomplishments, but because I want to get right to the 
testimony, I will give a very short introduction.
    Beginning first with Dr. Daniel Calingaert who oversees 
Freedom House's contributions to policy debate on democracy and 
human rights issues and public outreach. He previously 
supervised Freedom House's civil society and media programs 
worldwide. Dr. Calingaert contributes frequently to policy and 
media discussions on democracy issues, including Internet 
freedom and authoritarian regimes. Prior to joining Freedom 
House, Dr. Calingaert was associate director of American 
University's Center for Democracy and Election Management and 
associate director of the Commission of Federal Election 
Reform.
    We will then hear from Ms. Clothilde Le Coz, who is the 
Washington director for Reporters Without Borders, where she 
works to promote press freedom and free speech around the 
world. Previously she was in charge of Reporters Without 
Borders Internet Freedom Desk and focused on China, Iran, 
Egypt, and Thailand. She also updated the organization's 
handbook for bloggers and cyber dissidents published in 2005. 
Her role is now to raise awareness of the constant threats that 
journalists are subjected to in many countries.
    Then we welcome back to the committee a woman who has been 
here many times, Ms. Elisa Massimino, who has been the 
president since 2008 and chief executive officer of Human 
Rights First, one of the Nation's leading human rights advocacy 
organizations. Ms. Massimino helped establish the 
organization's Washington office in 1991 and served as the 
Washington director from 1997 to 2008. She is a national 
authority on human rights law and policy, has testified, as I 
indicated, dozens of times, and has published frequently. In 
2008, the Washington newspaper, The Hill, named Ms. Massimino 
one of the top 20 public advocates in the entire country.
    Then we will hear from Ms. Rebecca MacKinnon, who is again 
welcomed back to the committee to speak so authoritatively on 
this subject, is a senior fellow at the New America Foundation 
where she focuses on U.S. policies related to Internet, human 
rights, and global Internet freedom. She is cofounder of Global 
Voices Online, a global citizen media network and a founding 
member of the Global Network Initiative, a multi-stakeholder 
initiative to advance principles of freedom of expression and 
privacy in the information and communications technology 
sector. She is a former journalist for CNN in Beijing and 
Tokyo. Her first book, ``Consent of the Networked,'' will be 
published next month.
    So, Dr. Calingaert, if you could begin your testimony. Just 
let me--Congresswoman Ann Marie Buerkle, a member of the 
subcommittee, has arrived. Do you have a statement?
    Ms. Buerkle. Thank you, no, I will yield my time, but I 
thank you for holding this very important hearing.
    Mr. Smith. Thank you, Ms. Buerkle.

STATEMENT OF DANIEL CALINGAERT, PH.D., VICE PRESIDENT, FREEDOM 
                             HOUSE

    Mr. Calingaert. Mr. Chairman, honorable members, thank you 
very much for the opportunity to testify today. Authoritarian 
regimes have imposed extensive restrictions on Internet 
freedom. These restrictions are well documented in Freedom 
House's report, ``Freedom on the Net,'' and by others. I would 
ask that this Freedom in the Net report be entered into the 
record.
    Mr. Smith. Without objection, so ordered.
    Mr. Calingaert. I would like to focus on the use of Western 
technology to restrict the Internet and on the U.S. 
Government's response. Almost every regime affected by the Arab 
Spring has used U.S. or European technology to suppress pro-
democracy movements. Over the past several months investigative 
reports by Bloomberg News, The Wall Street Journal, and 
analysis by the OpenNet Initiative have documented a number of 
cases. Boeing subsidiary Narus sold monitoring technology to 
Telecom Egypt, NetApp software was part of a surveillance 
system installed in Syria, technology from Blue Coat Systems 
ended up in Syria. Blue Coat sold technologies to Bahrain, 
Qatar, and the United Arab Emirates. There were also important 
European cases, British company Gamma provided technology to 
Egypt's Interior Ministry under former President Mubarak to 
record Skype conversations. A French firm, Bull, installed a 
sophisticated Internet monitoring center in Libya while Colonel 
Ghadafi was in power, an Italian company, Area, installed an 
Internet surveillance system in Syria.
    The list goes on, and you can get the full list in my 
written testimony. But these are just the reported cases of 
U.S. and European technology that has ended up in the hands of 
Arab governments that restrict the Internet. There probably are 
many more. When these companies were asked by news reporters 
who their clients are, they usually refused to answer.
    Advanced technology for monitoring online data and 
communications attracts a great deal of interest overseas. A 
conference that brought together buyers and sellers of this 
technology this year in Dubai nicknamed the Wiretappers Ball 
had about 1,300 people in attendance. The Middle Eastern 
governments that have acquired Western technology for Internet 
censorship or surveillance have abysmal human rights records. 
Of the countries I have listed before, all but one were rated 
not free by Freedom House for calendar year 2010. Two of them 
were among the worst of the worst.
    Western technologies are working directly at cross-purposes 
with U.S. Government policy to promote Internet freedom. The 
U.S. Government is supporting efforts to circumvent Internet 
censorship at the same time as Western technology is making 
that censorship more robust, and the U.S. Government is funding 
programs to train human rights and pro-democracy activists in 
digital security while U.S. and European companies are selling 
surveillance software that puts those very same activists at 
greater risk.
    I give credit to the administration for the good work it 
has done on Internet freedom, but in dealing with the specific 
challenge of U.S. technology exports, the administration, 
frankly, has dropped the ball. The administration's approach to 
this challenge can be summed up in one line from Secretary 
Clinton's speech in February on Internet rights and wrongs. She 
said that businesses have to choose whether and how to enter 
markets where Internet freedom is limited. In essence, she is 
telling U.S. businesses to just do the right thing, but U.S. 
businesses continue to sell surveillance and censorship 
technologies to some of the worst abusers of human rights.
    Stronger action is needed. The Global Online Freedom Act is 
very much needed to stop the complicity of U.S. companies in 
suppressing Internet freedom. A key provision of GOFA is to 
prohibit exports of surveillance and censorship technology to 
countries that restrict the Internet. During recent protests in 
Cairo, angry Egyptian demonstrators held up U.S.-made tear gas 
canisters as a sign that the United States was still supporting 
their oppressors.
    Similarly, the use of U.S. technology by repressive regimes 
to track down democracy advocates who are then imprisoned and 
tortured is a blemish on America's image and a blow to U.S. 
credibility. GOFA would also promote transparency by requiring 
U.S. technology companies to disclose how they block online 
content and collect and share personal data. This requirement 
would make the companies more accountable to their users and 
encourage U.S. companies to push back on requests to 
collaborate with Internet censorship and surveillance. The 
trade provisions of GOFA merit strong support as well. They 
would push the U.S. Trade Representative to challenge Internet 
censorship more forcefully and stand up for U.S. companies that 
are adversely affected. Trade negotiations offer an effective 
way to promote the free flow of information.
    The U.S. Government and European governments have launched 
significant initiatives to protect online freedom, but these 
initiatives by themselves cannot keep pace with the growing 
Internet restrictions imposed by repressive regimes. Stronger 
actions are needed to stem the decline in global Internet 
freedom and to enable hundreds of millions of Internet users 
around the world to exercise their fundamental rights online. 
Thank you.
    Mr. Smith. Dr. Calingaert, thank you very much for your 
testimony and for your recommendations and for the insights and 
counsel you have provided to us as we shape this legislation.
    [The prepared statement of Mr. Calingaert follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Next, Ms. Le Coz, if you could present your 
testimony.

    STATEMENT OF MS. CLOTHILDE LE COZ, WASHINGTON DIRECTOR, 
                   REPORTERS WITHOUT BORDERS

    Ms. Le Coz. Thank you, Mr. Chairman. I would like to thank 
the subcommittee for organizing this very timely hearing as 
well as you, Mr. Chairman, for your commitment to promote 
global Internet freedom. For the past 4 years, I have been 
working on that topic, and this is a great opportunity to 
reiterate how online freedom is bound to the fundamental right 
to freedom of expression, but also to insist on the fact that 
human rights cannot be isolated from the other political and 
economic issues at play, and we welcome the new GOFA in that 
sense.
    The years 2010 and 2011 firmly established the role of 
social networks and the Internet as mobilization and news 
transmission tools. The Arab Spring and the echoes it had in 
Asia and Latin America made it clear that the Internet on 
computers and mobile phones was a very powerful tool of 
expression and witness. But unfortunately, it also made it very 
clear that what could be said and published could also be 
censored and attacked.
    Since the beginning of 2011, online censorship and 
restrictions are actually more important than before in some of 
the countries. For example, China did add the keyword 
``Jasmine'' to their blacklist, as they even did with the word 
``occupy.'' Vietnam reinforced the sanctions against bloggers 
and reporters' activities, and the authorities even threatened 
two netizens with possible imprisonment after they urged 
Vietnamese to follow the example of pro-democracy demonstrators 
in the Middle East.
    But China and Vietnam are definitely not the only ones 
following this trend, and what we witnessed today in Egypt, for 
example, can be compared to the Mubarak era methods. Alaa Abd 
El-Fattah and Maikel Nabil Sanad, certainly two of the most 
prominent bloggers, have been arrested simply for expressing 
their views, and they are still in jail, and in Syria, the 
Internet slows down every Friday when the main weekly 
demonstration takes place.
    Promoting global Internet freedom is first and foremost 
being able to link this issue to trade because there is a 
criminal cooperation between Western high tech companies and 
authoritarian regimes. According to Reporters Without Borders, 
more than 120 netizens are behind bars simply because of what 
they wrote online, and at least a dozen European and American 
companies have helped their government to put them in jail.
    According to files released by WikiLeaks in partnership 
with five news media outlets last week, more than 160 companies 
are actually involved. The surveillance tools sold by these 
companies are used all over the world by armed forces, 
intelligence agencies, and democratic and repressive 
governments. Any computer or mobile phone can be physically 
located.
    The United States took the lead, the main lead, in 
promoting online Internet freedom together by making clear that 
companies have a responsibility and should have a 
responsibility when selling their technologies abroad, and the 
United States should continue to do so, but American actions 
abroad cannot be relevant if the United States are not applying 
domestically what they are promoting internationally, and in 
the past year, however, one major issue has been of concern for 
online freedom in the U.S. Recently two bills were introduced 
that, if passed, would prevent the American citizens to benefit 
from this freedom. Aimed at fighting criminal behavior, which 
we obviously agree on, the Stop Online Piracy Act and the 
Protect IP Act would have serious implications for 
international civil and human rights.
    Some provisions are actually instituting DNS filtering and 
making it possible for Web services to take deliberate actions 
to prevent the possibility of infringement from taking place on 
their sites. That means that wrongly accused Web sites could 
therefore directly suffer from this action. And DNS filtering 
very much contributes to the Great Firewall that prevents 
Chinese citizens to access free information. Therefore, in 
order to promote global Internet freedom, our organization is 
asking today the U.S. Congress to reject the Stop Online Piracy 
Act and the Protect IP Act, but mostly to adopt effective 
measures to prevent the export of technology, equipment, and 
software to countries where they are likely to be used to 
violate freedom of expression and human rights, and this is 
what we think the new GOFA will help, and also to encourage 
companies, U.S. companies to ensure that the equipment supplied 
to a permitted country is not subsequently transferred to one 
that it is not.
    Reporters Without Borders would also like the U.S. Congress 
to encourage other countries, not only the U.S., but other 
countries to do so because this is one of the ways it could 
really be effective.
    And, lastly, is also asking not to keep human rights and 
online freedom on the site when talking about trade. This is 
exactly what we think GOFA will help to do, and last October, 
China's restriction on the Internet have led to the U.S. 
ambassador to the World Trade Organization to complain about 
China's firewall on the grounds that it was violating WTO 
rules. Thank you.
    Mr. Smith. Ms. Le Coz, thank you so very, very much.
    [The prepared statement of Ms. Le Coz follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Massimino.

STATEMENT OF MS. ELISA MASSIMINO, PRESIDENT AND CHIEF EXECUTIVE 
                  OFFICER, HUMAN RIGHTS FIRST

    Ms. Massimino. Thank you. Thank you, Mr. Chairman, and 
thank you to the subcommittee for convening this important 
hearing. I want to say a special thanks to you, Mr. Chairman, 
for your leadership on this and so many other human rights 
issues. You have really helped to elevate this issue of 
Internet freedom on the U.S. foreign policy agenda, and we are 
very grateful to you for your leadership.
    Nearly 2 years ago when Secretary Clinton declared the 
freedom to connect as a fifth freedom, she cited it as an 
essential avenue for the exercise of fundamental human rights 
and said governments should not prevent people from connecting 
to the Internet, to Web sites, or to each other, and while she 
noted that these technologies are value neutral, the United 
States has a strong interest in ensuring a single Internet 
where all of humanity, she said, has equal access to knowledge 
and ideas. The world's information structure will become what 
we and others make of it, she said.
    Well, today, we know that repressive states across the 
globe have made the Internet a dangerous place for those 
seeking freedom and more representative government. You, Mr. 
Chairman, framed the challenge that we confront today very well 
when you said how will all these dictatorships ever matriculate 
into democracy if the dissenters are all in prison, hunted down 
with high tech capabilities sold or acquired through U.S.-
listed companies? And that is what we are here to talk about 
today, the role of companies.
    You know, today in her speech, Secretary Clinton said that 
businesses have to ask themselves these questions, what should 
you do in a country with a history of violations of Internet 
freedom? How can you prevent post-purchase modifications when 
you sell to authoritarian regimes? Companies have to ask these 
questions, she said. Well, what we know now is that companies 
not only have to ask these questions, but they have to give 
informed and correct answers that reflect their own obligations 
to respect human rights, and so we are grateful to be able to 
focus today on the role of companies.
    We have three primary points to make today, our 
observations. One, that threats to Internet freedom are 
proliferating, which you have already heard and know well, but 
that few companies have policies to address those threats; two, 
that the United States has an interest in ensuring that 
companies make the right decisions when confronted with foreign 
governments' demands to limit Internet services or capture 
private user information; and, three, stronger U.S. Government 
pressure, including action from the Congress is necessary to 
promote improved corporate policies to address the threats to 
Internet freedom.
    I am not going to go into detail about the proliferation of 
threats to Internet freedom, you know them very well, and you 
have just heard them from the previous two witnesses, so I will 
move right ahead to what I would like to, what we are grappling 
with really at Human Rights First in working with companies who 
are operating in this space. Many of them, particularly 
surveillance and dual-use technology providers, when you press 
them about their operations and what happens when their 
products end up in repressive countries, tend to offer a few 
excuses, and I think it is instructive to listen to those 
excuses because they provide a road map for how corporate 
thinking and behavior needs to change in order for companies to 
become partners in protecting free information and digital 
privacy.
    So excuse number one, they say we comply with all 
international and national laws, what we are doing is not 
illegal. And at one level this is correct, obviously, but it 
ignores the fact that businesses have an internationally 
recognized responsibility to take concrete steps to protect 
human rights. The U.N. Guiding Principles on Business and Human 
Rights, which the U.N. Human Rights Council officially endorsed 
this year, calls for businesses to perform due diligence, to 
understand and avoid negative human rights impacts, that their 
activities or the activities of their business partners will 
have, and this standard is now reflected in the conflict 
minerals provisions of the Dodd-Frank Act in Section 1502 as 
well as in the OECD guidelines for multinational enterprises 
and the International Standards Organization's new ISO 26000, 
guidance on social responsibility.
    And the performance standards of the International Finance 
Corporation. So these are not new things. There are standards 
out there that businesses are or should be well aware of. So 
for sellers of surveillance and dual-use technology or related 
hardware, a minimum level of due diligence would have revealed 
their role in the incidents that you just heard about and the 
role that their products could play in enabling surveillance 
and repression.
    Excuse number two, they say, we sell to or partner with 
private companies, not governments, so we can't be held 
responsible for misuse of our product through a third party. 
Now, the U.N. Guiding Principles recognize that companies may 
be involved in human rights violations through their business 
relationships with third parties. An important way to protect 
against becoming a third-party enabler to human rights 
violations is to ensure that all partners in the business chain 
adopt policies that are consistent with the responsibility of 
American companies to respect human rights, so hardware 
companies should not sell products that could be used to 
violate rights to a ``private'' company operating in a 
repressive state if a reasonable amount of due diligence would 
show that the buyer is willing to make its technology available 
to government operatives. We have seen that happen time and 
again.
    Excuse number three. They say many democracies, including 
the United States, have laws requiring that hardware permit 
monitoring of communications or allowing surveillance of online 
activity in order to facilitate law enforcement. The now multi-
billion dollar industry for surveillance technology was born 10 
years ago out of the U.S. Government's desire for better high 
tech tools for combating terrorism. Now we recognize that 
governments have an obligation to provide for security and that 
there are legitimate law enforcement purposes to which this 
technology could be put, but companies need to be sensitive to 
the differences in context between largely democratic and 
repressive or authoritarian governments. The U.S. Government 
certainly can step over the line sometimes, but we have a 
robust, though imperfect legal and political system that can be 
used to curb abuses that repressive governments do not have. 
That means that surveillance technology in the repressive 
governments hence is more likely to be used in ways to violate 
human rights regardless of the permissible use of that 
technology for law enforcement purposes here in the United 
States. Companies need to take this into account in their 
decision-making, and democratic governments like the United 
States need to support companies to make the right decisions 
through appropriate export procedures and controls.
    Excuse number four. The technology that we bring into 
undemocratic countries is a force for good that over time 
outweighs the human rights violations that the technology 
facilitates. We hear this all the time. And of course, it is 
undeniable that increasing the availability of technology for 
citizens of repressive regimes has incredible benefits for the 
free flow of information, for free expression, and the ability 
to organize and inspire others, as Mr. Payne pointed out. 
However, such technology is, as we are talking about today, a 
double-edged sword.
    We recognize that the situations in these countries are 
complex and that the best course of action for a business is 
not always clear. But the first step is to ensure that American 
businesses do not go into these complex situations blind. If 
businesses gather as much information as possible regarding the 
society, the government, and the legal structure of the country 
in which they intend to operate and form a specific and 
comprehensive plan for dealing with the objectionable demands 
that government might make, they will be in a much better 
position not just to ask the right questions, but to give the 
right answers and make the right business decisions that will 
protect privacy and free expression.
    Excuse number five. Repressive regimes are going to get 
this technology no matter what. If it is not from us, then it 
will be from a company that is based in a country with fewer 
restrictions. We have heard this from some countries--from some 
companies, and certainly in other sectors we have heard it. But 
in other sectors of the economy, the U.S. has never based its 
trade relationships on this race-to-the-bottom approach, and 
right now, Americans have leverage since this technology was 
largely developed by U.S. companies and European partners. The 
U.S. is in a strong position working with European allies to 
establish new rules to guide these transactions.
    The Internet service providers also offer similar excuses, 
and we have similar answers to them, and I want to say that the 
way, I think the way forward from this, to close this gap 
between obligations and actual practice, there are two very 
important pieces which I discuss in the written testimony, and 
I won't go into them in detail, but one is Global Network 
Initiative, which you have heard about and you will hear more 
about, and I hope that we will talk about in the question-and-
answer period, but the other really is GOFA, the legislative 
angle.
    We are very concerned that there is a lack of pressure from 
the government side to help companies understand what their 
obligations are and to not have them navigating these dangerous 
waters alone. And so we applaud your efforts to push forward 
with this legislation, and we hope to work together with you. 
We have a number of ideas that we talk about in the written 
statement to strengthen the legislation. We know that threats 
to Internet freedom today come from many places, and they come 
in many forms. The Obama administration has articulated quite 
admirably a clear policy in support of Internet freedom and has 
made important early progress in elaborating strategy and 
coordinating amongst U.S. agencies and with our allies, and the 
GNI is also making important progress in raising awareness of 
the issue among companies and in promoting wider engagement, 
but we know from daily press reports that the threat to 
Internet freedom requires a more concerted and comprehensive 
response from governments and the private sector. The Global 
Online Freedom Act addresses an important and continuing gap in 
existing efforts. As one of our human rights colleagues from 
Belarus said last year in a meeting with President Obama, ``For 
you it is simply information, but for us, a free Internet is 
life.'' Thank you.
    Mr. Smith. Ms. Massimino, thank you very much for your 
testimony and your recommendations as well as providing those 
very useful excuses that are trotted out so routinely and then 
giving a very cogent response to each of them.
    [The prepared statement of Ms. Massimino follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. MacKinnon.

STATEMENT OF MS. REBECCA MACKINNON, BERNARD L. SCHWARTZ FELLOW, 
                   THE NEW AMERICA FOUNDATION

    Ms. MacKinnon. Thank you very much, Mr. Chairman, and 
Ranking Member Payne for the opportunity to testify today and 
for your leadership on this issue. I look forward to answering 
your questions after our opening statements.
    In my testimony today, I am going to touch upon the lessons 
learned from the Arab Spring, and particularly the role of 
companies in suppressing dissent in the Middle East and North 
Africa as well as in China and elsewhere. More details can be 
found in my written testimony. I will then conclude with 
recommendations.
    After Egyptian President Hosni Mubarak stepped down in 
February, Google executive and Facebook activist Wael Ghonim 
famously declared, ``If you want to liberate a society, just 
give them the Internet.'' Sadly, events since then, as detailed 
by previous testimony here today, have proven that Internet 
access alone is insufficient in the face of aggressive 
surveillance, cyber attacks, and brutal physical reprisals 
against cyber dissidents.
    In the Internet age, citizens' ability to organize, express 
dissent, and conduct political discourse depends increasingly 
on technologies that are created and often operated by 
companies. The unholy alliance of unaccountable government and 
unaccountable and amoral business is thus one of the most 
insidious threats to democracy everywhere. As I explain in my 
written testimony and have described in previous hearings, 
China is the most extreme example of how the public-private 
partnership in digital repression can work, but variants and 
permutations of such partnerships are exclusive neither to 
China nor to entirely authoritarian regimes.
    I, therefore, recommend the following: First, we need to 
improve and update export control laws, make collaboration with 
repression more difficult, require companies selling 
surveillance technologies overseas to conduct due diligence 
about the context in which these products are likely to be used 
and the human rights implications, require transparency in what 
is sold to whom and where it is used, with reporting 
requirements for companies as well as for U.S. Government 
agencies approving sales and exports. Export laws should also 
be revised and updated so that activists in countries like 
Syria are not denied access to communication tools by Internet 
companies fearful of violating sanctions.
    Second, we need to require corporate accountability and 
transparency in all markets. Companies should be required to 
report on how they gather and retain user information, how they 
share that information with governments, as well as the volume 
and nature of requests made by governments to delete or block 
user content or hand over user information. Mandating greater 
accountability and transparency on the part of corporations as 
well as on the part of governments about their access to 
corporate data and the demands they are making, and about how 
citizens communications are censored or monitored can promote 
consumer awareness and stimulate demand for services that 
people can associate with respect for their rights and 
stimulate lack of demand for companies that are not respecting 
people's rights. Shareholders and investors must also be 
properly informed about what they are supporting so that they 
can make investment decisions based not only on financials, but 
also on what kind of world these companies are helping to 
create.
    Third, the support of multi-stakeholder corporate 
accountability and assessment efforts is important. All 
information and communications technology companies must not 
only accept human rights risks and responsibilities, which they 
clearly hold, as we have heard today, they must conduct human 
rights due diligence, but they must also be required to undergo 
independent assessment to determine whether they are living up 
to their claims. The Global Network Initiative's globally 
applicable principles on free expression and privacy were 
developed over several years in a multi-stakeholder process 
involving not only companies but also human rights groups, 
socially responsible investors, and academic experts. They are 
supported by implementation guidelines and an accountability 
framework that applies to all markets and can be adapted to a 
range of business models, including hardware companies and 
Internet service providers. Companies that choose not to engage 
with the GNI should be required to submit to some other multi-
stakeholder assurance process of at least equal if not greater 
rigor and independence.
    And finally, we need to make sure that all U.S. legislation 
is compatible with global Internet freedom. All bills involving 
Internet regulation, from cyber security to copyright 
protection, to other challenges the Internet has wrought should 
undergo their own human rights assessments before introduction 
to identify potential, unintended consequences for human 
rights, free expression, and global Internet freedom. The Stop 
Online Piracy Act and the Protect IP Act, now before the House 
and Senate, are examples of bills that would have benefited 
greatly from human rights due diligence and due diligence about 
their impact on global Internet freedom before seeking remedies 
to address copyright infringement, which unfortunately would 
inflict collateral damage on free expression by effectively 
establishing a nationwide filtering system and blacklisting 
system as well as legal liabilities for Internet companies that 
would compel Web site owners to proactively monitor and censor 
users in ways that are not unlike the ways in which Chinese 
companies are required to monitor and censor.
    In short, there is no silver bullet solution for Internet 
freedom any more than there has ever been a silver bullet 
solution for freedom in the physical world. As in the offline 
world, protecting human rights in the digital realm requires 
public awareness, vigilance, and constant involvement as well 
as an ecosystem of industry, government, and concerned citizens 
working together with a shared commitment to basic rights and 
values. Thank you very much.
    Mr. Smith. Thank you very much for your very, very 
extensive recommendations, past and present.
    [The prepared statement of Ms. MacKinnon follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Let me ask, maybe start off with you and the 
others who might want to speak to this, China, it would appear, 
and I just chaired a hearing a couple days ago on Liu Xiaobo. A 
year ago on Saturday, we had the sad and tragic situation of an 
empty chair in Oslo where neither he, nor his wife, nor was 
anyone else able to receive the Nobel Peace Prize that he so 
richly earned by his advocacy for democracy in China. We know 
that the Chinese Government has deployed huge resources, no one 
knows the exact amount, but we know the consequence, to surveil 
and to use every means of making as impenetrable as possible 
the Chinese Great Firewall, and I know that a number of very 
talented people, including some from the Falun Gong and other 
very talented people who have been able to breach it have come 
up with technologies that are very useful not just for China, 
but elsewhere.
    A couple questions. Has China turned the corner with its 
own indigenous corporations, like Baidu and others? You know, 
they were totally relying or very much relying on U.S. high 
tech companies like Google, Microsoft, Cisco, and Yahoo! early 
on, but have they now taken the baton and created their own 
capabilities that parallel or even exceed those big corporate 
giants? And do you believe that if we require a listing of 
their due diligence efforts as being part of the U.S. stock 
exchange, which the new Global Online Freedom Act would 
require, would that be a helpful tool in knowing what, for 
example, Baidu is actually doing from year to year?
    Ms. MacKinnon. Thank you for those questions. In China 
today, actually, a great deal of the censorship and 
surveillance is not actually being conducted by the government. 
It is being conducted by Chinese companies largely. Most 
Chinese Internet users today, when it comes to social 
networking sites, when it comes to search engines, are 
primarily using Chinese services, and while Western hardware 
providers are certainly doing a great deal of business in 
China, Chinese companies such as Huawei, which is often called 
the Chinese Cisco, and another company called ZTE are also 
increasingly competing with Western products and are also 
innovating in terms of standards in a range of ways, and so, 
yes, China definitely no longer relies on Western technology to 
run its Internet infrastructure or, I should say, no longer 
needs to rely on it, and certainly when it comes to the Web, 
the Web tools, social networking, and search engines, again, 
that market is almost entirely domestic, and all of those 
companies are required to monitor and censor users, and they 
are doing it not with Internet police coming into their 
offices, but they are employing their own employees to conduct 
this censorship and monitoring, so the private sector is 
actually subsidizing a lot of this control.
    Speaking to your second question about reporting, I think 
this is quite important for a number of reasons. The first 
reason is that I think a lot of American investors who are 
investing in these companies do not really understand what is 
happening and do not have full information about the 
relationship between the government and the private sector and 
the Internet companies in China, and so requiring reporting in 
that regard would enable investors to make more informed 
decisions about what they really want to be supporting.
    Furthermore, reporting requirements would help Chinese 
people understand what is happening because, of course, most 
Chinese Internet users actually don't realize the extent to 
which these companies are censoring and manipulating and 
monitoring them because they are living within the system 
itself. They have been living with blinkers all their lives, 
they are not aware of what it is like not to have blinkers. So 
most definitely, greater knowledge, greater public awareness of 
what companies are doing will help inform users of what the 
alternatives are and what other possibilities might be.
    Mr. Calingaert. If I might add, I think there is a serious 
question of whether the Chinese companies that Rebecca 
mentioned are benefiting from protectionism. There are 
indications that the major American social media companies like 
Facebook are often blocked in China, and that probably benefits 
the Chinese companies commercially. There is a recent case 
reported of an application for iPad called Flipboard which 
aggregates news, and they launched recently in China and were 
blocked because they were providing the kind of content that 
the Chinese Government objects to, and there just happens to be 
a Chinese clone for this kind of application, and, you know, 
the reports are still being fleshed out, but there are 
indications that the American company was told that the 
Flipboard application, unless they started censoring, they 
would essentially lose out that market share to a Chinese 
company. So I think this, and especially the trade provisions 
of the GOFA bill, will get at this kind of problem.
    Ms. Massimino. I just want to echo that and say that I 
think that the SEC reporting provision in the bill, it is one 
of the most important provisions. I think that this is 
incredibly important for all the reasons that you heard, 
especially, I think, for transparency for investors. This is 
going to be a key issue. I think that as much as the industry 
has developed in China, the Chinese market is always going to 
be a huge magnet. You combine that with the fact that this is a 
business that is all about innovation. I think that it is going 
to be, in an ongoing way, very, very important to make sure 
that we are advising and requiring American companies or 
anybody, any company that is listed in the American stock 
exchanges to make these disclosures.
    Ms. Le Coz. I also would like to add that asking Baidu and 
other companies about what they are doing is also very timely. 
It is not only necessary, it is now because last month, the 
Chinese Government convened a meeting of the top 40 Chinese 
companies, Internet companies and high tech companies, to adopt 
new guidelines, so if there is a time where you can ask what 
they actually are doing is now.
    Mr. Smith. I appreciate that. Again, that is one of the 
improvements to the bill that we did not have in the existing 
or the preexisting proposals. On the export controls issue, if 
you would briefly touch on that, you know, it seems to me that 
even though a parallel industry has emerged in China, aided and 
abetted by U.S. and other high tech companies in the West, 
obviously the next advancement, the next capability, is always 
right around the corner, and if people do find the means to 
pierce the Chinese Great Firewall, if we are providing 
surveillance and censoring capabilities that are the next 
generation, it seems to me that it would be in our humanitarian 
interest not to be exporting it. Would you agree with that? Is 
that an important component here?
    Because, obviously, they are still buying the next-
generation technology, software, hardware, from U.S. 
corporations, and just as we wouldn't sell to their police 
certain police equipment, I hope we wouldn't sell them 
implements that could be used in torture, while certainly this 
is an area that is being used grossly for repression.
    Ms. Massimino. Yes, I can just start. But I think that is 
incredibly important. This is Section 301 in the bill, it is 
very important, and it is incredibly timely. There is an 
obvious gap, we talked about it today, that companies are able 
to say what we are doing is not illegal. We need to change 
that.
    I think another reason why that provision is important is 
because so many of these companies really have not gotten their 
heads around what it means to be responsible for the end use of 
their products. And a provision like this will force companies 
to ask those questions and to understand what it means to do 
due diligence. In many of these companies what we have found is 
they have just not yet realized the extent of their obligation. 
And this is, I think, a very important way to do that. We have 
asked these questions of companies, many of the companies that 
you heard us talk about today, whose products have ended up in 
the hands of repressive governments and about what they did to 
protect against that. And the answers, I can share them with 
you and your staff, are very revealing. Some of them had no 
idea that they even had to think about this. Others thought 
that a private company in the United States, private business 
partner that you are selling to, is the same as a private 
company in Iran, and others think that they have no obligation 
at all to disclose what they do or who they do it with.
    So I think this provision will go a long way to underscore 
with companies the extent of their only obligation, and it will 
prompt better due diligence in the future.
    Mr. Smith. Before the others answer, your excuse number 
four, that somehow this is a force for good, hopefully that 
myth--and I think for some, it was a well meaning sense. Google 
told us that when they testified here they thought the Internet 
would be opened up. As you mentioned earlier, Ms. McKinnon, in 
your quote that somehow there is something inevitable about the 
Internet that will open up societies. No, not when it is in the 
hands of a dictatorship. So I thought the force for good 
argument, hopefully that could be laid aside a couple of years 
ago, and certainly today, because it is being used maliciously.
    Ms. Massimino. Absolutely. And you know we hear from 
companies all the time that the real bad guys in this equation 
are the governments. And of course, that is true. But 
governments need tools in order to do the bad things that they 
do, particularly now. And for companies to ignore the potential 
for complicity in that chain of events I think is 
irresponsible. And this bill will help companies understand 
their responsibility in that chain.
    Mr. Calingaert. I would like to add a couple points. I 
think the approach that GOFA takes makes a lot of sense for a 
field or an industry that is very rapidly changing and you 
probably know all too well from having to update GOFA now for 
the third time, that changes in technology have a big 
implication for how you write the law.
    By focusing on basically setting in place a system to 
control exports, defining the kinds of export that you want to 
prohibit, what exactly is damaging about the technology, 
identifying the countries that should be on the list, and then 
presumably the list of actual technologies and products can be 
updated as you go ahead.
    I also think it is important that with this bill, you try 
to get ahead of the next scandal that is going to happen. I 
mean, sadly, there were the reports of Cisco helping build the 
Great Firewall of China and then afterwards policy makers 
trying to figure out how to fix that problem. And then you had 
the Yahoo! case, and you had Nokia Siemens selling surveillance 
technology to Iran. And there is nothing out there to stop yet 
another company doing who knows what. And so I think it is well 
beyond time to get ahead of this problem and put in place the 
system that is going to prevent the next abuse.
    Ms. Le Coz. Reporters Without Borders was really pleased to 
see that new provision, and we would like, actually, to 
encourage you to reach out to the European Union once they 
implement the European GOFA. That would be a way of being 
effective worldwide. And not to not sanction any U.S. companies 
who would like to do business abroad but who has to compete 
with the European one who wouldn't have to face the same 
challenges.
    And still regarding that provision, what we would also 
welcome is a way of asking companies to track down their 
technologies because they might sell it to a country that is 
not specifically repressive or not on the list, but it might 
still be able to go there. So to actually have a means of 
knowing where the technology is.
    Ms. MacKinnon. Just to add on, I concur with pretty much 
everything everyone said, but just to add a couple of points on 
both the ``it is not our responsibility to know how the product 
is used'' type of excuse, ``because we are not doing anything 
illegal,'' and also the excuse that, ``well, we are a 
transformative freedom-bringing technology anyway, and so those 
little details don't matter so much because in the end 
everybody is going to be freed by the Internet anyway,'' is 
sort of the narrative you often get.
    And what is quite funny is that this particular industry, 
while claiming to be so much more advanced than anyone else, 
any other industry, is actually a laggard compared to the 
extractive industry. Oil and gas and mining companies have long 
ago recognized that they cannot go it alone, that they need to 
be held accountable to work with other stakeholders, to work 
with human rights groups, to work with socially responsible 
investors to figure out how to mitigate their human rights 
risk. That industry, for the most part, they are not perfect--
but at least a lot of these companies have come to recognize 
that they do indeed have human rights risks, that they need to 
acknowledge them and they need be to held accountable to their 
commitments, and they need help reaching their commitments.
    Similarly, in the manufacturing and apparel industries on 
labor standards, you also have companies recognizing, the old 
tech companies, recognizing that they have human rights risks 
and responsibilities that they need to work on and accepting 
that they should be held accountable.
    Yet for some reason the technology industry seems to have 
an attitude, with only a very few exceptions, this kind of 
holier than thou, we are so Messianic, that we are above having 
to be held accountable or having to admit there is any downside 
to what we are doing. And it is time for people to grow up.
    Mr. Smith. Well put.
    Mr. Payne.
    Mr. Payne. Thank you very much. Let me thank all of you for 
your testimony, and I couldn't agree with you more.
    Some of these companies talk about the difficulty that it 
is to monitor and so forth.
    We had the same kind of notions that were expressed when 
two different types of legislation came about as related to 
Africa, the first being the blood diamonds legislation. People 
said there was no way, you can't identify diamonds, and as you 
may recall, in Sierra Leone, the diamonds were used by Charles 
Taylor to fuel the civil war and so forth. But we were able to 
get the Kimberley Process. It was strained. There was 
opposition to it. There were people who said it couldn't be 
done, but it is happening. It has got to improve, but it is 
happening.
    We have a second legislation that is working its way 
through, the minerals bill, I forget the exact name, but it is 
going to do the same thing in the Democratic Republic of Congo 
and other areas where minerals, very valuable minerals, are 
being used to fuel wars and that warlords are taking the 
profits, not benefiting the standard of living for the people 
in that country, very rich but one of the poorest for standard 
of living in the world, and we are moving that process through.
    So what do these Internet companies say? Is it impossible? 
Or is it that they just simply don't want to take on that 
socially responsible position?
    Ms. Massimino. Well, I think, they say a number of things, 
and I try to outline them in my testimony. These are the 
excuses for why they can't be held accountable or they can't 
know, and while I am sympathetic to the argument that companies 
can't control everything, it doesn't follow from that that they 
can't control anything.
    And I think that is one of the things that we are 
struggling with, with some of these companies.
    Now, of course, there are going to be lots of factors 
outside of companies' control and outside of the U.S. 
Government's control, frankly. But that doesn't mean that we 
can't significantly improve the performance and improve the 
situation for people in these countries who are struggling to 
advance freedom of expression and human rights in their own 
societies.
    Companies have to feel that they are being watched, their 
performance is going to be evaluated and that, particularly 
American companies, that we, as a country, stand for something 
and a lot of what we are exporting to the world is the values 
of our private industry. And those are important.
    When we are able to do this, it can work. If you remember 
the example of, and this gets us to the intellectual property 
issue that you heard about before, when companies are made to 
understand their role in repression and/or work with civil 
society and governments to fix it, it can be fixed. Remember 
what happened with Microsoft in Russia, where the intellectual 
property in piracy enforcement action against pirated software 
was being used by the Russian Government to crack down on 
dissenters or a civil society that was critical of the 
government. And Microsoft was complicit with that because it 
was frankly just dealing with the law enforcement entities in 
Russia the way they would with the law enforcement entities in 
the United States, rather naively, I think, under the best 
interpretation of their actions. But when made aware of that, 
and when they realized that they were complicit in the 
crackdown on dissent by the Russian Government, they changed. 
And they put their know-how and their innovation and their good 
thinking that they put into the development of their products 
into fixing this problem and came up with a scheme working with 
and speaking with civil society in Russia and here to 
circumvent the Russian Government's misuse of intellectual 
property enforcement and gave a blanket license to these groups 
to use their software.
    So it can be done, but requires a lot of vigilance on the 
part of the U.S. Government and civil society and working 
together, as Rebecca said, in these multi-stakeholder 
initiatives to be able to surface these issues.
    Mr. Payne. Thank you very much.
    Ms. Le Coz you mentioned in your six or seven points at the 
end of your testimony that we should encourage other companies, 
especially members of the OECD, to adopt similar bills.
    How has the effort been, and any of you might want to 
participate in the answer if you have something to add, how has 
the effort been? What has been the response from the European, 
the OECD companies? We hear, as you know, American companies 
say, we are at a disadvantage; we have the laws that, for 
example, business laws that prohibit corruption, the Foreign 
Corrupt Practices Act, for U.S. businesses that makes it 
illegal to bribe countries and contracting and so forth.
    European countries still have that provision. It is not 
illegal, and up until recently, it was actually a tax 
deductible item in Germany; it was just considered, just 
reported, as a cost of doing business. But I wonder how are the 
Europeans dealing with this, and has it come up? Has there been 
a concerted effort? Has any country taken this issue on?
    Ms. Le Coz. Yes. The European Union would like to implement 
GOFA in Europe, but they are not as far as the United States 
are. From when I just came to the Internet freedom desk for 
Reporters Without Borders, we were a part of the negotiations 
for what became the Global Network Initiative. You had European 
companies that were in those negotiations. They ended up never 
signing it, and when you were asking them why--and please, jump 
in as we talk about it--but when we were asking them why, it 
was, they didn't expect it to be that important.
    It means that at the level of their own companies, they had 
to hire and create something on human rights and business 
practices, which, and in that sense, where you were saying 
that, would the American companies say it is possible or 
impossible? I would say that the American companies, they are a 
lot more than what the Europeans have been so far.
    There might also be a difference in the way they see it. 
You try to prevent, and maybe in the European Union, we had the 
sense that it had happen to react.
    Mr. Calingaert. If I could add, the Foreign Minister of the 
Netherlands has called for export controls, and also there was 
a vote in the European Parliament in April to introduce export 
controls on technology to monitor Internet use and mobile phone 
use. In the European system, obviously, that kind of initiative 
won't happen until the European Council approves. But I think 
there is significant movement in a similar direction to GOFA.
    And I would also note that much of the interest, I know 
from discussions with Dutch, Swedish and other European 
officials, they are very interested in this issue in large part 
because of the Nokia Siemens case. It was really a disgrace 
that two major European companies sold very sophisticated 
monitoring technology to Iran which was used to clamp down on 
dissidents after the 2009 election.
    And these most recent reports of technology going to Syria 
and what was sold to Libya under Ghadafi originated in Europe 
as well. So I think this is a very salient issue. And there is 
a real opportunity to coordinate with European policymakers so 
that if and, hopefully, when export controls are introduced in 
the U.S., there are similar controls introduced in Europe and 
neither side's businesses will be disadvantaged.
    Mr. Payne. Thank you. Let me just ask one more question.
    As I indicated in Africa, we know about the Mugabe 
government and what is happening in Ethiopia, and I just 
wondered to what extent are African governments attempting to 
monitor or control private digital expression, in particular to 
exert political control over communications and how can 
citizens more effectively counter state attempts to control 
digital communications in these countries?
    I don't know if any of you have focused in on Africa other 
than the two countries that we cited. Yes.
    Ms. MacKinnon. Just a few comments. Ethiopia definitely 
filters the Internet. I think Zimbabwe less so, but it is 
believed that there is a certain amount of monitoring going on 
and other panelists may have other information.
    But it is also true that a lot of countries in sub-Saharan 
Africa are heavy customers of Chinese networking equipment, 
Huawei and ZTE in particular. And it is difficult to get a lot 
of details about the types of customization that goes on and so 
on. But just given how the network is configured in China and 
given some of the regimes that this equipment is sold to, we 
can easily draw some conclusions.
    Mr. Payne. Thank you.
    Yes.
    Mr. Calingaert. I just add briefly that the ``Freedom on 
the Net'' report of Freedom House covered several African 
countries, and Ethiopia was rated ``not free,'' among the worst 
rated countries; Zimbabwe, ``partly free.'' And the reports 
themselves have a lot more detail that could answer your 
question.
    Mr. Payne. Thank you.
    Well, I think that we really need to start to come down and 
push these technology companies, as you mentioned, to grow up 
and to have a human rights component as a very important part. 
There was a debate back 6, 7 years ago about whether 
restricting the Internet was going to harm or help the emergent 
countries. And at that time, being a former educator I felt 
that well, the ability to have information unrestricted, or 
information in general, if some is restricted, perhaps the 
overall good outweighs; that is what the arguments were at that 
time. And I was watching it from that point so-called balanced 
approach type thing.
    Certainly, it appears as if these corporations really are 
putting human rights and other issues far behind. It is just 
about doing business, about doing more business, and if some 
people are harmed, well, then, that is I guess maybe the cost 
of doing business.
    And so I do think that we need to start looking at stronger 
restrictions, and hopefully, it would be great if all these 
companies would just say, we are going to do the right thing, 
and then if a company wanted to do use any Internet, they would 
have to comply to what all these companies say. It could be a 
reverse way, where they say, well, none of us will go into, 
say, China or go into Zimbabwe, period, close them right out, 
and the country can't be left without it, so then if that 
sparked the countries to say, well, maybe we need to relook at 
ours; we can't be shut out; we can't be left out of this new 
millennium, perhaps something like that, of course it is a 
great dream, but something like that could put pressure on a 
country to say, I guess we need to change or we are going to be 
left behind big-time.
    So maybe that notion could kind of be thrown out there at 
some point.
    Thank you all very much for your testimony.
    Mr. Smith. Thank you Mr. Payne.
    Let me just ask a few final questions and then if Mr. Payne 
has any additional.
    Ms. MacKinnon, as a board member of the Global Network 
Initiative, you certainly have a ringside seat as to how well 
or poorly voluntary corporate responsibility is playing out, 
and I would note parenthetically, on the day we held the 
hearing, the first hearing ever on global Internet freedom, 
which led to the introduction of GOFA, the State Department 
came and sat where you sat, and announced the task force, the 
Global Internet Freedom Task Force, which to some extent took 
the wind out of the sails of one of the first provisions of the 
bill which was to create an office at the State Department. A 
task force is not an office, but it certainly has capabilities, 
and we welcomed it, I welcomed it, with open arms because it 
was moving from nothing to something. But very often we see 
this across the board on human rights issues, we are always 
told, let the companies comply voluntarily--and some do you; 
there is no doubt about that, some do step up to the plate.
    I remember during the early years of my tenure in office in 
the 1980s, I got elected in 1980 and took office in 1981, the 
same argument was being employed to say, ``Let's not have 
sanctions on South Africa,'' such arguments were being used on 
a whole host of human rights issues with regards to Eastern 
Europe, and it never worked, until you said, ``We are not 
kidding.'' We even have some companies argue that there is a 
competitive disadvantage to doing due diligence on human rights 
when the competitor is not, so they don't want to go that 
route, so the corporate board sits around and says, ``Let's 
eschew that.''
    So if you could speak to the Global Network Initiative, the 
GNI, because it seems it has had time to prove itself. The 
State Department finally, I don't think has stepped up to the 
plate and said--and the Pentagon--that there are real security 
implications that are underappreciated about what is happening 
here, all this police capability that has been significantly 
enhanced also has dual use for militaries that are deployed 
elsewhere I would think. So if you could take a stab at that.
    Ms. MacKinnon. Well, thanks very much. And just to 
emphasize, I do agree that government pressure, Congressional 
pressure and pressure from the executive is extremely 
important. And without that pressure, it is difficult to 
properly incentivize, let's say, companies to move in the right 
direction. And GNI is certainly meant to be part of an 
ecosystem of efforts, it is not meant to be the end all or be 
all by any means.
    I think as far as the success of the initiative, it is 
still in the early days. Those who have been involved with some 
of the other multi-stakeholder initiatives around extractives, 
blood diamonds and manufacturing, will know that it takes 
sometimes a few years for these initiatives to really prove 
themselves, to gain membership and so on.
    And the first round of assessments is currently underway. 
The assessments, the independent assessments of the first three 
companies to join, Google, Yahoo! and Microsoft, will be 
completed early next year, and the results will then be 
publicized. We will have a better sense by then of to what 
extent membership in the Global Network Initiative has in fact 
improved these companies' ability to address their 
responsibilities and to avoid problems.
    But it is definitely true there is a problem convincing 
companies that they need to do this. And with a small staff and 
a small membership, GNI cannot on its own convince companies 
that they need to be held accountable and that they need to 
make commitments. If consumers are not aware of what is going 
on, if investors more largely are not aware of what is going on 
and if there is insufficient government pressure, if there is 
no kind of disincentive from other parts of the government, 
then there is going to be a lot less reason that they are going 
to feel like they should expend the effort.
    I would also point out, too, that, and again, I agree that 
well-crafted legislation is an essential part of the picture, 
but there are also aspects because technology evolves so fast, 
it is difficult to get too finely grained about each specific 
company because every company, every technology is somewhat 
different. Their technologies are changing very quickly. In 
2006, when GOFA was first introduced we were mainly talking 
about filtering, now we are talking about deletion and deep 
packet inspections and surveillance, and the technology has 
evolved a great deal, and so it is difficult to revise and 
refine and change the legislation in a very finely grained way 
so that companies don't then come up with this excuse, well, it 
wasn't illegal, so we did it, because you didn't get around to 
passing the law or changing the law.
    And so one of the benefits of having companies make broad 
commitments to free expression and privacy and then work with--
in a sufficiently robust multi-stakeholder initiative that 
holds them to these commitments is that you can then have a 
group of experts really looking at the very specifics of their 
technology and the very specifics of how it is affecting users 
from month to month and year to year as that changes very 
rapidly and make sure that they are living up to the spirit 
rather than just the letter.
    And keeping companies connected with the spirit, I think, 
requires more than just law. It requires an ecosystem of 
efforts and an assurance and assessment process that is 
independent and that has the involvement of human rights groups 
and technical experts I think is also very important.
    So it is very early days, GNI now has two new members, and 
again, we will see how things evolve. There are discussions 
with some other companies, not only in the United States. We 
are optimistic that over the coming months, there may be more 
members.
    I think a growing number of companies are recognizing that 
they do need help and are starting to think internally and have 
conversations about how they get to the point where their 
corporate culture is even capable of joining something like 
GNI, but there are a number of companies who are starting to 
move in that direction.
    Ms. Massimino. Human Rights First also is a founding board 
member of GNI, but we have also been involved in a number of 
these other multi-stakeholder initiatives with private 
companies. And I would encourage you, one of the reasons for 
the GNI coming into existence was the perfect storm of 
pressure, from both the Congress and the public about what 
companies were doing and the human rights impacts of their 
actions.
    My concern now is that some of that pressure is waning, and 
there is, as we go through the process, as Rebecca said about, 
you know, implementation of the principles and assessment of 
companies' performance, that there is a bit of a waning of 
energy in terms of the urgency of commitment to that.
    You know I think for us, the metrics for success for the 
GNI or any other multi-stakeholder initiative like that is not 
so much the number of company members, although that is 
important, we want more companies to join, but we want them to 
join for the right reasons. And I think it would be very 
instructive and helpful actually if you and other leaders on 
these issues in Congress were to keep an eye on the GNI and ask 
us questions about how we are doing, perhaps even have a 
briefing or a hearing about, once this initial assessment phase 
is done. Transparency is so much the key to getting this issue 
right. That is why the provisions of GOFA that require 
reporting are so important. It is also the key to these private 
multi-stakeholder initiatives working.
    So I would ask you to encourage us in the GNI to be 
forthcoming about that and ask us the hard questions.
    Mr. Smith. We will invite you back on that.
    Let me ask Ms. MacKinnon, with regards to the export of 
China's capabilities, specifically by Chinese companies--and I 
do think when we talk about China's private sector, it needs to 
be in quotes because it certainly is heavily influenced if not 
run by the government--but, are we seeing an exporting of 
Chinese capabilities to other repressive regimes, like Belarus, 
like Egypt, for example, or anywhere else?
    Ms. MacKinnon. Certainly Chinese networking companies like 
Huawei and ZTE, who I mentioned, are doing a lot of excellent 
business in much of the world. Libya was a heavy customer of 
Huawei's. We are finding out Iran is a strong customer of 
theirs as well, and so certainly the capabilities of their 
networking equipment and their willingness to service that 
equipment in ways that suit those local governments' needs is 
certainly helping those governments to filter and monitor their 
networks.
    But the problem is that we are finding actually the most 
sophisticated surveillance technologies that are making their 
ways in the Middle East and North Africa and also in other 
places, these are actually coming from the West. And so this is 
part of the problem, is that the highest tech surveillance 
mechanisms are really coming from us.
    Mr. Smith. Let me ask and maybe Dr. Calingaert, you might 
want to answer, one of the provisions in our trafficking in 
persons law heavily emphasizes naming and shaming, naming 
countries--and there is obviously a follow up, once they are 
named; when they are designated a Tier III, for example, they 
can be very heavily sanctioned. We do the same thing with 
Countries of Particular Concern for religious persecution 
issues and religious freedom. And the first provision of our 
Global Online Freedom Act is Internet restricting countries. I 
have absolutely no doubt there will be pushback from the 
administration, as there always is, no matter who is in the 
White House, that they don't want to make such a call, but it 
has been my experience, especially with trafficking, that when 
a country is even on the Watch List but they are a Tier III, I 
talk to them; Luis CdeBaca, Ambassador-at-Large for trafficking 
issues, his office is deluged. Our local mission of the named 
country is visited, a dialogue starts, and very often, that 
country, through very real, concrete actions can get themselves 
off of Tier III by taking action to try to combat to human 
trafficking. Will that work here? Do you think it is a good 
idea to have such a designation for countries that engage in 
that?
    Mr. Calingaert. Absolutely, and in some ways, it might work 
better because with Freedom House's report, we already do this. 
And it is an entire report looking specifically at the issues 
of access, restrictions and other challenges to Internet 
freedom.
    If we are looking at the how it might apply, we use the 
most simple summary of our results, put countries into three 
categories, either ``free,'' ``partly free'' or ``not free.''
    In terms of Internet freedom, our last report covered 37 
countries; of those, 11 were rated ``not free.'' And by our 
assessment, it is very clear that the restrictions on the 
Internet in those countries are quite extensive.
    The bigger challenge is what to do about the mid-range 
countries. And there are several countries in the partly free 
category where there are quite significant restrictions on 
Internet freedom, but the interesting point is there is much 
more freedom on the Internet than in the traditional media. 
And, in fact, we use the same scale for our press freedom as we 
do for Internet freedom, and it is precisely in this mid-range 
where we see a big gap showing much more Internet freedom than 
traditional press freedom.
    That said, there are certain countries in that category 
which we are very concerned about, including Malaysia and 
Russia, and we are looking closely at the trends there because 
we think the environment might get a lot more restrictive, and 
especially Russia, after what has happened in recent days that 
the Internet was instrumental in exposing a lot of the vote 
fraud, I wouldn't be surprised if the Russian Government starts 
to clamp down there.
    Mr. Smith. Ms. Le Coz did mention denial of service in the 
Russian context as well.
    Ms. Le Coz. Yes. Last week, 15 Web sites were attacked in 
Russia and right during the parliamentary election.
    Mr. Smith. Including the chief monitoring Web site, isn't 
that correct, for independent assessments of how free and fair 
the election was?
    Ms. Le Coz. Yes.
    Mr. Smith. Let me ask just a few final questions. Corporate 
responses to enabling repression can take either ignorance--and 
we had that at the first hearing, I sensed that some whether 
wittingly or unwittingly, some of the top people, some of the 
brightest minds in Google, Cisco, Microsoft and Yahoo! kind of 
were feeding an ignorance that somehow what they were doing, 
``Gee us?'' Some of it might have been real. But there is also 
the indifference, somebody could just be indifferent; they 
don't care who gets hurt as long as they make money. But 
recently the President, Jerry Lucas of the company that hosts 
the Wiretappers' Ball, a surveillance industry trade show, told 
the Washington Post that this technology is absolutely vital 
for civilization. He told the Guardian that an open market 
exists for the sale of technology and that you cannot stop the 
flow of surveillance equipment. He suggested that it is 
impossible to control this equipment.
    An anonymous State Department official who attended the 
Wiretappers' Ball in Maryland told the Washington Post that 
``we have lost, if the technology people are selling at these 
conferences gets into the hands of bad people, all we can do is 
raise the costs; we can't completely protect activists or 
anyone from this.''
    Now that sounds to me more like surrender, and if we just 
throw up our hands and say, no mas, we have lost the ability, I 
think, to protect the best and the brightest in all of these 
countries who just want to be free and have a democracy.
    What is your sense when you hear that kind of statement 
from the State Department and Jerry Lucas in his comments?
    Ms. MacKinnon. If I may, well, Jerry Lucas is amoral, if 
not immoral. Those types of statements are certainly 
unacceptable.
    I think, however, it is also important to point out that 
the U.S. Government's relationship with many of these companies 
is more as a client and an enthusiastic client than as a 
regulator or putting any kind of pressure on them. I have heard 
of no evidence that the several dozen U.S. agencies, State and 
government agencies, as well as Federal that attended that 
conference, have made any effort to use their pressure as major 
clients and customers of these companies to ask questions about 
whether these companies are actually adhering to human rights 
norms, whether these technologies can be modified in ways that 
go far beyond the way they ought to be used in a free and 
democratic society.
    And they are just going there to buy and find out all the 
cool things they can do and are basically to some extent 
complicit in this culture of secrecy and basically anything 
goes, you just sell this to whoever wants it, and you have got 
U.S. Government agency people in these meetings rubbing 
shoulders with people from governments all over the world. And 
it is basically a secret meeting. The press isn't allowed to 
come. There are no requirements to report on what goes on 
there.
    And I think it is important that the U.S. Government take 
the lead in adopting policies of greater transparency and 
accountability about how these products are being used and the 
U.S. Government's relationship with some of these companies 
that we know are complicit in repression around the world.
    And if I could add one further comment on the designation, 
I think that the naming and shaming component definitely can be 
quite effective or has been shown to be effective in other 
kinds of human rights situations.
    With the Internet, one thing we do need to be careful about 
is how we use these designations, how we then, the requirements 
we place around companies and countries that are either 
designated or perhaps not designated or perhaps borderline so. 
For instance, one, while there are some countries that might 
quite obviously fall on the list, there are other countries, 
such as India, where the Telecommunications Minister has just 
recently demanded that Facebook and Google and other companies 
censor political speech on the Internet that they feel is 
critical of existing politicians. This is an example of why 
reporting requirements need to be global, that companies need 
to be transparent about the way and about the extent to which 
they are handing over information to governments and the extent 
to which they are being asked to take down content globally.
    And I think a good model for this is Google's transparency 
report where they are reporting on all of the markets where 
they are doing business, on the number of takedown requests 
they are receiving from governments, the number of requests for 
user information they are receiving, and they are also 
reporting on how many requests they actually responded to and 
so on. And while, obviously, in genuinely unfree countries, 
this provides very useful advocacy information for activists, 
even in countries that might not perhaps make that list, such 
as India, I know of activist organizations in India who have 
taken information they have received from the Indian Government 
about censorship policies and then compared it with Google's 
transparency report, seeing massive discrepancies and are then 
able to use this as an advocacy tool to push for greater 
honesty on the part of their government.
    So this is one example, I think, of why it is important 
that the transparency and accountability reporting requirements 
and disclosure requirements really do need to be global, 
because there are a lot of countries where the abusive 
technology can take a country that is decently democratic and 
move it into a much more repressive direction. And you want 
companies to be on the forefront of helping citizens prevent 
that from happening in advance rather than waiting until it has 
already turned into an Internet restricting country and then 
you place requirements on companies doing business there.
    So this is kind of one example, I think, of why global 
transparency is really important.
    And also, I think it is important that democracies take the 
lead in saying, look, we believe that the relationship between 
government and companies needs to be transparent and 
accountable, and that citizens of democracies need to 
understand what is going on, so that if there are abuses, those 
can be addressed, and so that we can serve as an example for 
other countries to follow.
    So, again, this is why I feel that a lot of the 
requirements are best off if they are truly global, even if 
there is a designation list.
    Mr. Smith. Yes.
    Mr. Calingaert. I found it really shocking to even get that 
quote published in the record that essentially some businesses 
have the attitude of, we just sell this stuff.
    We should really pay attention to what this stuff is. When 
we are talking about spyware, it is software that has gone to 
some of the worst, most oppressive regimes that we know 
routinely track, monitor, harass, intimidate dissidents. We 
know of cases in Bahrain, Iran, and elsewhere where activists 
have been shown intercepted private communications when they 
were being interrogated, and they were pressured through that 
to turn in other activists, and some of these people were 
tortured. So this is what some Western companies are complicit 
in.
    And sorry, comment on the administration's attitude, yeah, 
they are throwing up their hands, and that is all the more 
reason why Congressional leadership is needed on this issue.
    Ms. Massimino. Just on that last point about the 
administration's attitude. My own experience is that that 
comment from an unnamed official, while it might express some 
frustration, justifiably so, at what was going on at this 
conference, doesn't really reflect the attitudes of the people 
that I have seen working on these issues. I think if there is 
one thing we know about this industry it is that it is 
constantly innovating, and so what that means in the context of 
repressive government and democracy human rights activists is 
that this is a cat and mouse game, constantly changing. And we 
have a side in that fight, you know, the United States stands 
for something, and we are choosing sides, and American 
companies need to be put to that choice as well.
    But as soon as that technology gets in the hands of 
repressive governments, we also have an obligation and 
companies ought to put all of their energies and innovation 
into creating a market to get around that threat to privacy and 
free expression. And so whatever we can do and whatever the 
Congress can do to encourage that kind of innovation and 
transparency about business relationships, that will make sure 
that the balance doesn't get tipped permanently to the side of 
the repressive governments.
    Ms. Le Coz. I want to add also, we were shocked to hear 
that comment, and because we sell stuff, 2 years ago, because 
people sold stuff, there is an American citizen, who is 
originally from Thailand, who was interrogated on the U.S. soil 
by Thai officials simply because of what he wrote online. It 
happened here. So if you continue to sell stuff, this is 
actually what people are exposed to and not only in China or 
where actually these companies want to do business but don't 
really want to know what the dissidents are becoming once the 
technology is there, it can come here. It already did.
    Mr. Smith. Before yielding to Mr. Payne, I have always 
argued that for a dictatorship to prosper and to continue to 
repress its own people, it needs at least two major components: 
A very aggressive secret police that can use billy clubs and 
whatever, to repress its people; and propaganda. It seems to me 
that in a very real way this high tech complicity, again 
wittingly or unwittingly, I think, at this point, I don't know, 
just defies credulity.
    We have a situation where, just like tasers are subjected 
to export controls, this is a taser of high tech capability, 
and the people who then get caught in its net, and that would 
be the dissidents, the religious believers, the workers' rights 
advocates, who, in China, as we all know, are rounded up--there 
are no independent trade unions and yet if you try to form one 
or initiate a wildcat strike or, say, you want to negotiate in 
a collective bargaining, means forget it, you are going to 
prison. And if you are on the Internet, they are going to find 
you. So I just do think that tasering is an apt description 
because at the end of the day, it is the people that we care so 
much for, the democracy activists, the people who believe in 
freedom, who are getting tasered by these by the secret police 
courtesy of high tech companies here and abroad.
    So we are going to push very hard.
    I do believe, and maybe I'm wrong, but every single human 
rights initiative that I have been a part of, including the 
Trafficking in Persons initiative, the TVPA, Trafficking 
Victims Protection Act, was strongly opposed by the 
administration. In most cases, they came around at the end and 
actually signed the bill, whoever it was in office, in that 
case Bill Clinton. Their folks testified here that they didn't 
want it. They wanted a couple of small tweakings but not the 
naming and shaming, not the TIP report, all of those important 
aspects as well, so I suspect we are going to have an uphill 
battle here. But frankly, the stakes are so high now, not just 
for China but for all of the other countries that now have 
learned from China to use these repressive tools. It is a high 
tech example of what was said infamously during the Soviet 
years, the West will hang itself, and they will sell us the 
rope, and high tech rope is certainly all of what you have so 
brilliantly testified to today.
    Mr. Payne.
    Mr. Payne. I wonder, I heard you talk about what has 
happened after the results of the Russian elections have come 
out. Does anyone have any idea whether the Internet played a 
significant role in the surprise that Putin had at the results 
where he did not, I don't think, win an overwhelming majority--
I think it was almost less than 50 percent--but do we have any 
intelligence to know whether the Internet was active there?
    Ms. MacKinnon. I can speak to that. Global Voices Online, 
the Web site that I cofounded, has a team of Russian bloggers 
and Russian speakers who have been following the Internet there 
very heavily. And most certainly, it seems that a lot of the 
people who went out in to the streets did so because of online 
mobilization, and that for many of them, it was their first 
protest action ever, a lot of the people who got detained had 
never even been at a protest before. And so definitely.
    And there were also some Web sites that sort of had kits 
for people, here is a flier that you can print out and stick up 
around your neighborhood and so on. And people writing about 
how, vote for anybody except United Russia. So definitely, both 
in terms of the protests after the election over what some felt 
were rigged results as well as the results themselves, it does 
seem that the Internet played a role.
    There were also very aggressive attacks against opposition 
Web sites as well, and LiveJournal went down, which is kind of 
one of the most popular blog hosting systems in Russia, and of 
course, it is hard to pin exact responsibility on who launched 
the attacks, but people are assuming that the attacks were from 
people who didn't want the critics of the ruling party to speak 
out and organize at that time.
    Ms. Le Coz. I would like to add that it is specifically 
because online political debate is really present in Russia 
that Russia is one of the countries where you can find the most 
propaganda online because they know it is taking place there, 
during elections, but also before and after.
    And this is a place for political debate. LiveJournal, one 
of the most popular Web sites goes down every time there is 
something happening; 15 others that are critical of the actual 
political situation went down, too. And this is because it is 
happening there that you have all those attacks.
    Mr. Payne. Has anyone been monitoring the, in that region, 
the Ukraine and Belarus? Has there been any, to your knowledge, 
attack on the Internet or trying to shut it down? Both of those 
countries are going through some changes right now.
    Mr. Calingaert. Well, there are actually--Belarus is fairly 
sophisticated. And in the aftermath of their last Presidential 
election, where there was significant reports of voter fraud 
and then protests, and the state-owned Internet service 
provider was basically redirecting traffic away from opposition 
Web sites and had created clones, which looked pretty much 
exactly the same as the original ones, but they had 
misinformation on them, so they give the wrong place and time 
of the protests. So there is quite extensive manipulation of 
the Internet in Belarus and quite sophisticated.
    Mr. Payne. Well, let me--I also, a statement by the U.S. 
Government official, I think in a lot of instances sometimes, 
and I'm not in defense of them because I don't even know who 
was there, but the government tends to be outmanned it seems in 
a lot of instances. You will have some staff people there, and 
you have got the world there with their half-million-dollar 
lawyers and $200,000 salesmen, and so they overwhelm the, 
usually, the people there that are supposed to be representing 
State or the interests of good people. And so, however, I agree 
that we can't throw in the towel. You can't quit. You have to 
realize what is happening.
    And as we are moving in this, and it is not going to get 
any better, because as you know, with our debt, and the two 
things that are going on--there is a move to even reduce the 
size of government, so we are going to even have less 
capability of doing things of this nature when we are getting 
down to cutting $4 trillion, $5 trillion, $6 trillion over the 
next 10, 15 years, so the reality is that we are going to have 
a difficult time if the trend in, at least in the House, 
continues, so there are going to be some real barriers.
    And finally, there is a strong move against regulations. 
There is another philosophy that regulations stymy growth and 
we are stagnant in our Nation because we have EPA laws that say 
we can't pollute; if we could pollute, we could do more coal or 
something.
    So we are going to run into the whole notion of 
deregulation, and it is going to be even difficult to try to 
regulate. The battle is going to be to try to hold on to things 
that are positive in the overall scheme of things. But the 
argument about growth and jobs tend to be the overriding factor 
now.
    So, I just think, though, that people like those of you 
here are very essential to this. We will certainly continue to 
express our views, and I just like to thank all of you for 
testifying. Thank you.
    Mr. Smith. I would like to thank you, too, for your 
expertise, your guidance, your wisdom.
    Victor Hugo once said, ``There is nothing more powerful 
than an idea whose time has come.'' This is the year, and it 
may take a year to get this enacted, but we have got to go and 
give the tools and empower our own Government to have the 
ability to restrict these dual-use capable technologies from 
being used against very fine people who want freedom. And you 
have provided us tremendous insights, and I thank you so much.
    Please, I know you will be there as we move through this 
process because we are not going to let up until this is law. 
And I expect we will have huge obstacles in the near term, but 
at the end of the day, once this is enacted and then we will be 
talking about reauthorization and improvements in the outer 
years, people will say, why wasn't that done sooner? So, again, 
you are long stayers in the fight for human rights. Thank you 
so much for your insights today and for being here.
    The hearing is adjourned.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            <F-dash>\<Copyright>a<natural><Rx>a<star>a<Rx>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



            <F-dash>\<Copyright>a<natural><Rx>a<star>a<Rx> 
                     <because><F-dash><Register>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


       <F-dash>\<F-dash><natural><box><box><star><pound><acctof> 
                   <H-dash><pound><brit-pound>s<box>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
[Note: The previous report is not reprinted in its entirety but is 
available in committee records.]

                                 <all>

</pre></body></html>
